No. 19-1149

 

 

IN THE

Supreme Court of the United States

UPMC; UNIVERSITY OF PITTSBURGH PHYSICIANS,
D/B/A UPP DEPARTMENT OF NEUROSURGERY,
Petitioners,

v.

UNITED STATES OF AMERICA EX REL.
J. WILLIAM BOOKWALTER, III, M.D.; ROBERT J.
SCLABASSI, M.D.; ANNA MITINA,
Respondents.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit

BRIEF OF AMERICAN HOSPITAL ASSOCIATION,
ASSOCIATION OF AMERICAN MEDICAL COLLEGES,
FEDERATION OF AMERICAN HOSPITALS, HOSPITAL
AND HEALTHSYSTEM ASSOCIATION OF
PENNSYLVANIA, AND NEW JERSEY HOSPITAL
ASSOCIATION AS AMICI CURIAE IN SUPPORT OF
PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,956 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 13, 2020.

J

Colin Casey Hoga;
Wilson-Epes Printing Co., Inc.

   
